NO. 19-1357
In the

Supreme Court of the United States
________________

ROBERT ANGELO PEREZ,
Petitioner,
v.
STATE OF COLORADO,
Respondent.
________________
On Petition for Writ of Certiorari to the
Supreme Court of Colorado.
________________
RESPONDENT’S BRIEF IN OPPOSITION
________________
PHILIP J. WEISER
Attorney General
ERIC R. OLSON
Solicitor General
Office of the Colorado
Attorney General
1300 Broadway, 10th Floor
Denver, Colorado 80203
andrew.cooper@coag.gov
(720) 508-6000

L. ANDREW COOPER
Deputy Attorney
General
Counsel of Record*
BRITTANY L. LIMES
Assistant Attorney
General

Counsel for Respondent
September 11, 2020

i
QUESTION PRESENTED
Whether, and to what extent, the Sixth and
Fourteenth Amendments guarantee a criminal
defendant the right to discover potentially exculpatory
mental health records held by a private party,
notwithstanding a state privilege law to the contrary.

ii
TABLE OF CONTENTS
QUESTION PRESENTED ..................................... I
TABLE OF CONTENTS ....................................... II
TABLE OF AUTHORITIES ................................ III
INTRODUCTION .................................................. 1
STATEMENT OF THE CASE ............................... 2
REASONS FOR DENYING THE PETITION ...... 7
I. This case is a poor vehicle to resolve the
question presented because any error was
harmless beyond a reasonable doubt. ......... 8
A. Petitioner confessed in great detail to
murdering his wife. .................................. 9
B. Petitioner presented ample other
evidence to support his suicide defense. 12
II. The opinion did not deepen any split, and on
these facts most States would deny in
camera review of the privileged records. ... 15
A. The unpublished opinion applied
longstanding Colorado law. ................... 16
B. The nonprecedential opinion did not
deepen any split. .................................... 18
C. Petitioner did not make a sufficient
showing to justify in camera review...... 22
CONCLUSION..................................................... 26

iii
TABLE OF AUTHORITIES
CASES
Advisory Op. to the House of Representatives, 469
A.2d 1161 (R.I. 1983) ................................................. 21
Burns v. State, 968 A.2d 1012 (Del. 2009) ..................... 20
Chambers v. Mississippi, 410 U.S. 284 (1973) ............... 13
Chapman v. California, 386 U.S. 18 (1967) ..................... 9
Commonwealth v. Barroso, 122 S.W.3d 554 (Ky.
2003) ........................................................................... 19
Dietrich v. Smith, 701 F.3d 1192 (7th Cir. 2012) .... 20, 24
Dill v. People, 927 P.2d 1315 (Colo. 1996)...... 6, 17, 23, 25
Harrington v. California, 395 U.S. 250 (1969) .......... 9, 12
Hathaway v. State, 399 P.3d 625 (Wyo. 2017) ............... 20
Holmes v. South Carolina, 547 U.S. 319 (2006) ............ 13
Jaffee v. Redmond, 518 U.S. 1 (1996) ............................ 21
Pennsylvania v. Ritchie, 480 U.S. 39 (1987) .................... 6
People v. Dist. Court, 719 P.2d 722 (Colo. 1986) .... passim
People v. Stanaway, 521 N.W.2d 557 (Mich. 1994) . 20, 21
People v. Wittrein, 221 P.3d 1076 (Colo. 2009) .............. 17
R.S. v. Thompson in & for Cty. of Maricopa, 454
P.3d 1010 (Ariz. Ct. App. 2019)................................. 19
Rock v. Arkansas, 483 U.S. 44 (1987) ............................ 13
State v. Fay, 167 A.3d 897 (Conn. 2017) .................. 19, 24
State v. Green, 646 N.W.2d 298 (Wis. 2002) ...... 19, 21, 25

iv
State v. Hummel, 483 N.W.2d 68 (Minn. 1992) ............. 20
State v. Neiderbach, 837 N.W.2d 180 (Iowa 2013) ........ 19
State v. Rehkop, 908 A.2d 488 (Vt. 2006) ................. 19, 20
State v. Trammell, 435 N.W.2d 197 (Neb. 1989) ........... 20
Strickler v. Greene, 527 U.S. 263 (1999) ........................ 23
Sullivan v. Louisiana, 508 U.S. 275 (1993) ............... 9, 12
United States v. Bagley, 473 U.S. 667 (1985) ................ 23
Washington v. Texas, 388 U.S. 14 (1967) ....................... 13
Yeutter v. Industrial Claim Appeals Office, ___
P.3d___, 2019 COA 53 (Colo. App. 2019) .................. 18
Zapata v. People, 428 P.3d 517 (Colo. 2019) ............ 17, 21
STATUTES
§ 13-90-107(1)(g), C.R.S. (2019) ........................................ 6
OTHER AUTHORITIES
U.S. DEP’T OF HEALTH & HUMAN SERVS., “Does
depression increase the risk for suicide?” FAQ –
Mental Health and Substance Abuse,
https://www.hhs.gov/answers/mental-healthand-substance-abuse/does-depression-increaserisk-of-suicide/index.html (last accessed Sept.
11, 2020) ..................................................................... 24

INTRODUCTION
Petitioner asks this Court to review an
unpublished, nonprecedential Colorado Court of
Appeals decision that affirmed the finding that he had
not made a sufficient showing under the Sixth and
Fourteenth Amendments to require an in camera
review of his deceased wife’s privileged mental health
records, which he claims were necessary to his suicide
defense.
This case is a poor vehicle to resolve that question
because Petitioner confessed to his wife’s murder
during trial, making the suicide defense largely
irrelevant to his conviction. Evidence discovered at the
crime scene and presented at trial corroborated his
detailed confession. Given Petitioner’s confession and
the extensive leeway he was otherwise given to
present his suicide defense, any error in quashing his
subpoena for his wife’s privileged mental health
records was harmless beyond a reasonable doubt.
The Colorado Court of Appeals decision also did
not deepen any split in authority, as it applied
longstanding Colorado law and comports with the
national majority rule requiring defendants to make a
particularized factual showing of need to trigger an in
camera review. And the court of appeals correctly
concluded that Petitioner’s general assertion that his
wife sought treatment for depression was not a
sufficient particularized showing that those records
were necessary to his defense.
Further review from this Court is unnecessary.

2
STATEMENT OF THE CASE
1. Factual background. Petitioner found out his
wife, Dennielle, had an affair, and Petitioner became
enraged. Pet. App. 3a-4a. When Dennielle’s parents
called her that day, they could hear Petitioner yelling
in the background using profanity and racial epithets.
R. Tr. 5-9 (May 3, 2016 PM). Concerned for her
daughter’s safety, Dennielle’s mother asked
Dennielle’s aunt to go over to their house to check on
her. R. Tr. 39-41 (May 3, 2016 AM). When Dennielle’s
aunt and uncle arrived, they saw Petitioner pacing
angrily outside the house, and he told them that
Dennielle had an affair. R. Tr. 41-52 (May 3, 2016
AM). Dennielle’s mother called the police and they
searched the house, but Dennielle was not there. R.
Tr. 11-19, (May 3, 2016 PM). Her mother and sister
eventually found her disoriented and wandering the
neighborhood a few hours later. R. Tr. pp 19-25 (May
3, 2016 PM); R. Tr. 43-48 (May 9, 2016 PM). Dennielle
went to stay with her parents. Pet. App. 3a-4a.
While Dennielle stayed with her parents,
Petitioner called her repeatedly and sent her several
messages that threatened to expose sexually explicit
pictures of her and that were emotionally abusive. Pet.
App. 4a. Eventually, Petitioner convinced Dennielle to
come back and discuss their relationship, and
Dennielle’s brother dropped her off at Petitioner’s
work two days later. Pet. App. 4a.
The next day, Dennielle’s mother and sister tried
calling her multiple times, with no response. R. Tr. 3335 (May 3, 2016 PM); R. Tr. 66 (May 9, 2016 AM). At
around 2:00 p.m., Petitioner called Dennielle’s mother
and asked if she had seen Dennielle. R. Tr. 35 (May 3,

3
2016 PM). Dennielle’s mother replied that she had not
and that she was calling the police and coming over to
their house. R. Tr. 35-39 (May 3, 2016 PM). After they
hung up, Petitioner immediately called the police and
told them he found his wife dead in the basement. Pet.
App. 4a.
Responding officers found Dennielle’s body lying
on the basement floor next to a bed, with a shotgun
partially beneath her body. Pet. App. 4a. The autopsy
revealed a fresh scrape on one knee and bruising all
over Dennielle’s body consistent with blunt force
trauma. Pet. App. 4a; R. Tr. 102-125 (May 4, 2016
PM). It also showed a gunshot entrance wound under
her left armpit and a small exit wound in her middle
back. Pet. App. 4a; R. Tr. 89, 125-131 (May 4, 2016
PM).
The coroner’s reenactment showed that, while
theoretically possible, it would have been difficult for
a person Dennielle’s size to shoot herself with the
shotgun and receive the same injuries Dennielle
received. R. Tr. 7-29 (May 5, 2016 AM). The coroner
concluded that while “there’s some compelling
evidence at my autopsy, and with the reenactment, to
rule this a homicide, at the end of the day . . . I could
not absolutely exclude suicide.” Pet. App. 14a; R. Tr.
31 (May 5, 2016 AM).
Petitioner’s hands and shirt tested positive for
gunshot residue. R. Tr. 53-54 (May 11, 2016 PM); R.
Tr. 28-30 (May 12, 2016 PM). Police also discovered an
ejected shotgun shell under the bed and that the pump
action was worked after the shot was fired. R. Tr. 7982, 88, 95-96 (May 4, 2016 AM); R. Tr. 53-63, 67-72
(May 12, 2016 AM).

4
Petitioner was charged with first degree murder –
after deliberation for Dennielle’s death. Pet. App. 4a.
Through counsel, Petitioner claimed he was not
guilty because Dennielle committed suicide. Pet. App.
4a. He attempted to subpoena Dennielle’s mental
health records from Kaiser Permanente, but the trial
court quashed this subpoena and found the records
were covered by the psychologist-patient privilege,
Dennielle had not waived her privilege, and the
records were not subject to in camera review because
the privilege is absolute. Pet. App. 23a-26a, 39a.
At trial, Petitioner presented evidence suggesting
Dennielle was depressed and suicidal. Specifically, he
presented evidence that she had erratic sleeping
habits and had lost a significant amount of weight in
the weeks preceding her death. R. Tr. 108-110 (May 3,
2016 AM); R. Tr. 60-61 (May 3, 2016 PM). He elicited
testimony that Dennielle was disappointed with her
career and unhappy in her marriage, and that she
longed to have children but had trouble getting
pregnant. Pet. App. 13a-14a. He presented evidence
that Dennielle’s cousin, to whom she had been close,
committed suicide when they were teenagers. R. Tr.
61-62, 66 (May 3, 2016 AM). Friends and family
members testified that Dennielle had discussed
suicide with them but denied that she had ever
considered committing suicide herself. Pet. App. 13a14a Dennielle’s brother testified that she took a
handful of sleeping pills and wandered away from the
house on the night Petitioner discovered her affair.
Pet. App. 14a. A detective testified that Petitioner told
him Dennielle struggled with depression and had
sought mental health treatment. R. Tr. 8-9 (May 12,

5
2016 AM). And a defense expert in forensic pathology
testified at length that Dennielle died of a gunshot
wound that was self-inflicted. Pet. App. 14a.
But a week into the trial, police discovered
Petitioner confessed to a fellow inmate after the first
day of jury selection. Pet. App. 4a-5a. Petitioner told
the inmate he killed Dennielle and offered the inmate
$25,000 to say the inmate had slept with Dennielle
and that she committed suicide because she was afraid
of being prosecuted for stealing money from the
restaurant her family owned. Pet. App. 4a-5a.
Although Petitioner tried to discredit the inmate
with his numerous felony convictions involving
dishonesty, the inmate knew several specific details
about the events leading up to the murder and
evidence found at the scene, which were corroborated
by other evidence presented at trial. The jury also
watched a jail surveillance video, which showed
Petitioner and the inmate conversing for two hours on
the day Petitioner confessed and showed Petitioner
physically demonstrating how he positioned the
shotgun by Dennielle’s body to make it seem like she
committed suicide. R. Tr. 10-15 (May 12, 2016 PM).
The jury convicted Petitioner of first degree
murder. Pet. App. 5a.
2. Proceedings in the Colorado Court of
Appeals. Petitioner directly appealed his conviction.
Pet. App. 1a-22a. He claimed his Sixth and Fourteenth
Amendment rights to confrontation, to compulsory
process, and to present a defense required the trial
court to review Dennielle’s privileged mental health
records in camera and balance his need for the

6
information in the records with her interest in
confidentiality. Pet. App. 6a.
The Colorado Court of Appeals affirmed in an
unpublished, nonprecedential decision. Pet. App. 2a22a. The court of appeals observed that the plain
language of Colorado’s psychologist-patient privilege
statute, section 13-90-107(1)(g), C.R.S. (2019),
“appears to preclude the compelled production of
mental health records unless the privilege is waived,”
even for in camera review. Pet. App. 8a. The court of
appeals noted that the Colorado Supreme Court had
distinguished this Court’s decision in Pennsylvania v.
Ritchie, 480 U.S. 39 (1987), concluding that while the
Pennsylvania statute in Ritchie contemplated some
form of judicial review of confidential child abuse
records, Colorado’s psychologist-patient privilege
statute contains no provision allowing for disclosure
based on a court order. Pet. App. 9a-10a (citing Dill v.
People, 927 P.2d 1315, 1325 (Colo. 1996)).
The court of appeals recognized a defendant’s
constitutional rights might overcome the privilege in
“extraordinarily narrow circumstances”; but, “in the
absence of a particularized showing that mental
health records contain statements or information
necessary to vindicate a defendant’s right to present a
complete defense, Colorado’s psychologist-patient
privilege does not allow trial courts to conduct an in
camera review of mental health records unless a
patient has waived the privilege.” Pet. App. 11a-12a.
It then concluded Petitioner’s claim that Dennielle
may have been depressed and may have discussed her
depression with her treatment provider at some
unknown time was not a sufficient “particularized

7
showing” that the privileged records contained
exculpatory evidence, and his “broad assertions are
insufficient to overcome Colorado’s strong public
policy interest in securing the privacy of mental health
records.” Pet. App. 12a-13a.
The Colorado Supreme Court denied his petition
for certiorari review. Pet. App. 1a.
REASONS FOR DENYING THE PETITION
This case is a poor vehicle to address the question
presented. Petitioner confessed, in explicit detail, to
his wife’s murder. Physical evidence and testimony
from other trial witnesses corroborated his confession.
Combined with the extensive leeway Petitioner was
given to present evidence supporting his suicide
defense, his first degree murder conviction was surely
unattributable to any error in quashing the subpoena
for his deceased wife’s privileged mental health
records.
Under Colorado law, the unpublished opinion
does not create binding precedent and did not deepen
to any split in authority. Rather, it applied
longstanding Colorado law, which contemplates
allowing in camera review of privileged records if a
defendant makes a particularized factual showing
that the records contain material, exculpatory
information necessary to vindicate the defendant’s
right to present a defense. This rule is consistent with
the nationwide majority rule, which requires
defendants to make a particularized factual showing
that the requested privileged records would be
material or exculpatory or otherwise demonstrate a
“compelling need” for the records to trigger an in
camera review.

8
And the Colorado Court of Appeals correctly
concluded that Petitioner failed to make that required
sufficient particularized showing. Petitioner claimed
Dennielle sought treatment for depression and may
have discussed her depression with her treatment
provider, and that her depression “may” have led to
her suicide. This proffer was general and vague, and
Petitioner acknowledged the privileged records would
merely corroborate the nonprivileged testimony of
other witnesses. This proffer was not enough to show
Dennielle’s mental health records contained material,
exculpatory evidence that would have influenced the
outcome of his trial had it been discovered, and it did
not justify piercing the psychologist-patient privilege.
This Court should deny the petition.
I.

This case is a poor vehicle to resolve the
question presented because any error was
harmless beyond a reasonable doubt.

This case is a poor vehicle to resolve the question
presented because even if the trial court erred in
quashing Petitioner’s subpoena for Dennielle’s mental
health records, the guilty verdict was surely
unattributable to that error for two reasons.
First, the jury heard testimony that Petitioner
confessed, during trial, to killing his wife, which
conflicted with his suicide defense.
Second, before his confession surfaced in the
middle of trial, Petitioner was given significant leeway
to present other evidence supporting his suicide
defense—in addition to testimony about Dennielle’s
depression from fact witnesses, he presented expert
testimony suggesting she died from a self-inflicted
gunshot wound.

9
Because any error was harmless beyond a
reasonable doubt, this case is not a good vehicle to
resolve the question presented.
A. Petitioner confessed in great detail to
murdering his wife.
After the first day of jury selection, Petitioner
confessed to a fellow inmate, in explicit detail, to
murdering his wife. This confession undercut
Petitioner’s suicide defense and rendered any error in
the trial court quashing his subpoena for Dennielle’s
privileged records harmless beyond a reasonable
doubt.
A constitutional error is not reversible if the
prosecution can demonstrate it was harmless beyond
a reasonable doubt. Chapman v. California, 386 U.S.
18, 24 (1967). An error is harmless beyond a
reasonable doubt when the guilty verdict was “surely
unattributable to the error,” including when the
properly
admitted
evidence
of
guilt
was
overwhelming. Sullivan v. Louisiana, 508 U.S. 275,
279 (1993); Harrington v. California, 395 U.S. 250,
254 (1969).
Petitioner’s cousin introduced Petitioner to
another inmate in the Denver County Jail because the
inmate frequently gave legal advice to fellow inmates
like Petitioner. R. Tr. 94-96 (May 12, 2016 AM). After
the first day of jury selection for Petitioner’s trial,
Petitioner and the inmate talked about Petitioner’s
case for two hours in one of the jail’s common areas. R.
Tr. 96-97, 137-41 (May 12, 2016 AM).
Petitioner described how during one of their fights
about her affair, Dennielle called her parents to come
pick her up and he had yelled profanities and racial

10
epithets, hoping Dennielle’s parents would hear those
details and react negatively. R. Tr. 104-06 (May 12,
2016 AM).
Petitioner told this inmate that on the night of the
murder, Dennielle said she wanted a divorce, and they
fought “into the wee hours” of the night. R. Tr. 111
(May 12, 2016 AM). During the fight, Petitioner ripped
up some of their wedding photos. R. Tr. 112-13 (May
12, 2016 AM). The fight turned physical, with both
Petitioner and Dennielle throwing things. R. Tr. 11314 (May 12, 2016 AM). Dennielle told him she was
leaving the next day, then went to the basement
bedroom to go to sleep. R. Tr. 114 (May 12, 2016 AM).
According to Petitioner, he then took a shower,
and as he showered, “the more that he thought about
the fights and the more he thought about the
relationship and about letting her go he just got more
and more agitated and angry.” R. Tr. 114 (May 12,
2016 AM). The inmate described how Petitioner’s
demeanor changed and he became agitated and upset
as he talked about his reaction. R. Tr. 115-16 (May 12,
2016 AM).
Petitioner explained that when he got out of the
shower, he dried off, went to get his shotgun, and went
downstairs where Dennielle was sleeping. R. Tr. 11720 (May 12, 2016 AM). He woke her up, and as she
started to get up he shot her in the chest. R. Tr. 12122 (May 12, 2016 AM).
Petitioner said he then went upstairs to clean
himself up and let one of their dogs inside, hoping that
the dog would contaminate the crime scene. R. Tr. 12223, 126 (May 12, 2016 AM). He laid the gun next to her
body and tried to stage the scene to make it look like

11
she committed suicide. R. Tr. 123, 126-27 (May 12,
2016 AM). The jury watched a jail surveillance tape of
Petitioner demonstrating for the inmate how he
positioned the gun. R. Tr. 10-16 (May 12, 2016 PM); R.
Tr. 141-42 (May 12, 2016 AM). Petitioner said
Dennielle was still alive at that point, but unconscious
and breathing heavily. R. Tr. 124 (May 12, 2016 AM).
Petitioner kissed her forehead, then went to work to
create an alibi for himself. R. Tr. 125-26, 128-29 (May
12, 2016 AM).
Petitioner then said that when he got home from
work, he went to move Dennielle’s body onto the bed
and noticed blood trickling from a hole in her back, so
he left her where she was on the floor. R. Tr. 124-25,
130 (May 12, 2016 AM). He then called the police and
told them Dennielle killed herself. R. Tr. 130 (May 12,
2016 AM).
Petitioner asked the inmate if he would testify
that he met Dennielle at a club for sadomasochists and
that they had an affair. Pet. App. 5a. He told the
inmate to say Dennielle committed suicide because
she had been stealing from her family’s restaurant to
fund a sadomasochistic lifestyle and did not want to be
exposed. Pet. App. 5a. He offered to pay the inmate
$25,000 for this testimony. Pet. App. 5a.
The prosecution learned of this confession when
the inmate was questioned about an unrelated assault
in the jail a few days later, and it presented the
inmate’s testimony during the second week of trial.
Pet. App. 4a-5a.
Petitioner’s confession was corroborated by the
evidence at trial and contained details the inmate
could have only learned from Petitioner. For example,

12
the inmate knew the layout of their house, that
Dennielle’s nickname was “Nelly,” that Petitioner and
Dennielle had dogs, and that Petitioner yelled specific
profanities and racial epithets while Dennielle was on
the phone with her parents. Compare R. Tr. 99-101,
104-06, 119-20, 122-23, 126 (May 12, 2016 AM) with
R. Tr. 33, 96-97 (May 3, 2016 AM); R. Tr. 5-9 (May 3,
2016 PM); R. Tr. 41-42 (May 4, 2016 AM); R. Tr. 4-5
(May 12, 2016 AM). The confession was also
corroborated by physical evidence, including ripped up
wedding photos police found in their house and a small
hole on Dennielle’s back from the shotgun blast.
Compare R. Tr. 112-13, 124-25 (May 12, 2016 AM)
with R. Tr. 46-47 (May 4, 2016 AM); R. Tr. 89, 125-131
(May 4, 2016 PM); R. Env 2, Exs, 19-21.
After the prosecution introduced Petitioner’s
detailed and damning confession at trial, his suicide
defense was no longer credible. His confession ensured
that any error in quashing the subpoena for
Dennielle’s mental health records did not contribute
in any way to his conviction for first degree murder.
Sullivan, 508 U.S. at 279; see also Harrington, 395
U.S. at 254.
B. Petitioner
presented
ample other
evidence to support his suicide defense.
Petitioner was also given significant leeway to
present nonprivileged evidence in support of his
suicide defense, rendering any error in excluding
redundant evidence from Dennielle’s privileged
mental health records harmless beyond a reasonable
doubt.
The only circumstances where this Court has
found a violation of a defendant’s right to present a

13
defense is when an evidentiary rule excluded “critical”
defense evidence or deprived the defendant of a
fundamental right, such as testifying in his or her own
defense. See Holmes v. South Carolina, 547 U.S. 319,
327-30 (2006) (rule prohibiting defendant from
presenting evidence that another person committed
the crime violated right to present a defense because
it was arbitrary and excluded significant defense
evidence); Rock v. Arkansas, 483 U.S. 44, 52-57 (1987)
(rule excluding hypnotically refreshed testimony
violated right to present a defense because it excluded
the defendant’s testimony about the crime); Chambers
v. Mississippi, 410 U.S. 284, 301-02 (1973) (rule
excluding evidence that a witness confessed to three
different people that he committed the crime the
defendant was charged with violated the right to
present a defense because the evidence was “critical”
to the defense); Washington v. Texas, 388 U.S. 14, 1623 (1967) (rule prohibiting codefendants, accomplices,
and accessories from testifying violated right to
compulsory process because it precluded defendant
from presenting the testimony of the only other person
who witnessed the crime).
Excluding Dennielle’s privileged mental health
records did not deprive Petitioner of evidence “critical”
to his defense because Petitioner had ample other
opportunities to introduce nonprivileged evidence to
support his suicide defense.
Petitioner presented expert testimony from a
forensic pathologist who opined that Dennielle died
from a self-inflicted gunshot wound. Pet. App. 14a.
The coroner testified that while there was
“compelling” evidence that the cause of Dennielle’s

14
death was homicide, he “could not absolutely exclude
suicide.” Pet. App. 14a; R. Tr. 31 (May 5, 2016 AM).
Petitioner also elicited testimony from Dennielle’s
family and friends that she had discussed suicide with
them but denied that she would ever commit suicide
herself. Pet. App. 13a-14a. He presented evidence that
Dennielle longed to have children but had not been
able to get pregnant, that she was disappointed in her
career, and that her marriage to Petitioner was
unhappy. E.g., Pet. App. 13a-14a. He pointed out that
Dennielle had recently lost a significant amount of
weight and had erratic sleeping habits. R. Tr. 108-110
(May 3, 2016 AM); R. Tr. 60-61 (May 3, 2016 PM).
Dennielle’s brother testified that Dennielle told
him she took a handful of sleeping pills and wandered
away from the house on the night Petitioner
discovered her affair. Pet. App. 14a. And a detective
testified that Petitioner told him Dennielle had sought
mental health treatment at Kaiser Permanente for
depression. R. Tr. 8-9 (May 12, 2016 AM).
Under these circumstances, Petitioner presented
ample evidence supporting his suicide defense, and
the jury’s guilty verdict was surely unattributable to
any error in excluding what would have been
cumulative evidence from Dennielle’s privileged
mental health records, if it existed.
Because any error was harmless beyond a
reasonable doubt, this case is a poor vehicle to resolve
the question presented. This Court should deny the
petition for certiorari review.

15
II. The opinion did not deepen any split, and on
these facts most States would deny in
camera review of the privileged records.
This Court should deny the petition for three
additional reasons.
First, the unpublished, nonprecedential opinion
did not deepen any split in authority, as it applied
longstanding Colorado law holding that a defendant is
not entitled to an in camera review of privileged
records absent a particularized factual showing that
the records are necessary to vindicate the right to
present a complete defense.
Second, Petitioner misstates the degree and
nature of any split in authority, as most jurisdictions
that allow in camera review of privileged records
require defendants to make a particularized factual
showing that the requested records are material,
exculpatory, or necessary to his defense. Because the
psychologist-patient privilege serves significant public
interests, most jurisdictions recognize that requiring
a particularized factual showing of need is necessary
to prevent fishing expeditions into confidential and
privileged materials.
Third and finally, Petitioner asks this Court to
correct the court’s alleged error in declining to review
Dennielle’s privileged mental health records in
camera. However, the court of appeals correctly
concluded that Petitioner’s general and vague proffer
that Dennielle was depressed and might have
discussed her depression with her treatment provider
was not enough to show the records he sought were
necessary to support his suicide defense.

16
Given these circumstances, this Court should not
review this correct, nonprecedential decision.
A. The
unpublished
opinion
longstanding Colorado law.

applied

The unpublished, nonprecedential Colorado
Court of Appeals did not “deepen” any split in
authority. Rather, it applied longstanding Colorado
law.
In 1986, the Colorado Supreme Court held that
absent a waiver from the privilege holder, “the
defendant is not entitled to examine the victim’s postassault psychotherapy records or to have the trial
court review such records in camera on the basis that
the records might possibly reveal statements of fact
that differ from the anticipated testimony of the victim
at trial.” People v. Dist. Court, 719 P.2d 722, 727 (Colo.
1986). Responding to the defendant’s argument that
the Confrontation Clause may require in camera
review in some circumstances, the supreme court held
the defendant “failed to make any particularized
factual showing in support of his assertion that access
to the privileged communications of the victim is
necessary for the effective exercise of his right of
confrontation.” Id.
Subsequent Colorado case law consistently
applied this standard. In Dill v. People, the Colorado
Supreme Court reaffirmed the rule from District Court
and concluded that the defendant’s request to search
the victim’s psychotherapy records for inconsistent
statements “was nothing more than a desire to
conduct a fishing expedition in the hope of discovering
material exculpatory information that he has no

17
reason to believe will be found.” Dill v. People, 927
P.2d 1315, 1324 (Colo. 1996).
Later in People v. Wittrein, the Colorado Supreme
Court resolved the case on non-constitutional grounds
but noted that the psychologist-patient privilege “may
not yield to Wittrein’s bare request for the records,
hoping that they may contain exculpatory
information.” 221 P.3d 1076, 1084 n.7 (Colo. 2009).
The concurrence addressed the Defendant’s
constitutional claims and similarly concluded, “in the
absence of a particularized showing that the records
contain exculpatory information not otherwise
available to the defendant, in camera review is not
required.” Id. at 1088 (Martinez, J., concurring).
And most recently in Zapata v. People, the
Colorado Supreme Court again applied the rule from
District Court and held: “For a court to review
statutorily privileged material, the initial showing
must be more than a ‘vague assertion that the victim
may have made statements to her therapist that
might possibly differ from the victim’s anticipated
trial testimony.’” Zapata v. People, 428 P.3d 517, 529
(Colo. 2019) (quoting Dist. Court, 719 P.2d at 726).
Contrary to Petitioner’s claims, the court of
appeals did not break new ground or deepen any split
in authority; it applied consistent Colorado Supreme
Court precedent when it concluded, “Perez’s simple
assertion that Dennielle may have been depressed and
may have discussed her depression with her mental
health provider does not constitute a particularized
showing that her records are likely to contain
exculpatory material necessary for Perez’s defense

18
that the victim committed suicide.” See Pet. App. 10a13a.
And under Colorado law, unpublished opinions
such as this one do not create precedent for other
cases. Colo. App. Rule 25(e); Yeutter v. Industrial
Claim Appeals Office, ___ P.3d___, 2019 COA 53 ¶22
(Colo. App. 2019) (“Nor do we give precedential weight
to unpublished decisions of other divisions of this
court.”)
B. The nonprecedential opinion did not
deepen any split.
Petitioner also misapprehends the nature of the
split. He groups the case law from jurisdictions around
the country into two broad categories: (1) those
requiring in camera review when a defendant shows
that records “plausibly” or “probably” contain
exculpatory material or there is a “reason to believe”
they may contain such material—standards under
which he insists he would prevail; and (2) those that
either categorically prohibit in camera review, or
impose a “stringent test” of showing, to a “reasonable
certainty,” that evidence necessary to a defense exists
within the records and “will, in fact, be exculpatory”—
standards under which he admittedly would lose. Pet.
9-13. Petitioner places Colorado in the second category
and argues that Colorado’s requirement of a
particularized, factual showing that the records would
be material or exculpatory is an improper,
“heightened” standard that makes Colorado an
outlier. Pet. 32-34. He argues that a defendant should
only need to make “some plausible showing” that
privileged records would be material and relevant to
obtain an in camera review. Id.

19
Actually, Colorado’s rule is the majority view.
Most jurisdictions that allow in camera review of
privileged medical records require defendants to make
a particularized factual showing that the requested
records would be material, exculpatory, or necessary
to the defense or otherwise demonstrate a “compelling
need” for the privileged records. See R.S. v. Thompson
in & for Cty. of Maricopa, 454 P.3d 1010, 1017 (Ariz.
Ct. App. 2019), (requiring “a substantial probability”
that the records contain information that is “critical to
an element of the charge or defense,” or that their
unavailability “would result in a fundamentally unfair
trial”), cert. granted Aug. 25, 2020; State v. Fay, 167
A.3d 897, 911 (Conn. 2017) (requiring a “compelling
need” for the records, including the unavailability of
less intrusive sources of the same information); State
v. Neiderbach, 837 N.W.2d 180, 197 (Iowa 2013)
(upholding statute requiring a reasonable probability
that the information sought is likely to contain
exculpatory information that is “not available from
any other source” and “for which there is a compelling
need” for the defendant to present a defense); State v.
Rehkop, 908 A.2d 488, 496-97 (Vt. 2006) (requiring a
“sufficiently particularized showing” that the records
contain material evidence, and a “need for the
privileged information”); Commonwealth v. Barroso,
122 S.W.3d 554, 563-64 (Ky. 2003) (requiring “receipt
of evidence” sufficient to establish that the records
contain exculpatory evidence that is “both favorable to
the accused and material,” and a “reasonable
likelihood that the records will be necessary to a
determination of guilt or innocence”); State v. Green,
646 N.W.2d 298, 309 (Wis. 2002) (requiring a “factspecific evidentiary showing,” describing “as precisely

20
as possible” the information sought from the records
and how it supports a particular defense); People v.
Stanaway, 521 N.W.2d 557, 574 (Mich. 1994)
(requiring a good-faith belief, “grounded on some
demonstrable fact,” that there is “a reasonable
probability that the records are likely to contain
material information necessary to the defense.”); Dist.
Court, 719 P.2d at 727 (requiring a “particularized
factual showing” that “access to the privileged
communications of the victim is necessary”);
Hathaway v. State, 399 P.3d 625, 637-40 (Wyo. 2017)
(requiring “more than a hunch that some vague type
of record may exist or a conclusory statement that the
information is constitutionally material”).
Only three jurisdictions appear to have adopted
something truly akin to the low “plausibility” standard
that Petitioner favors. Dietrich v. Smith, 701 F.3d
1192, 1197 (7th Cir. 2012) (“plausible showing”); State
v. Hummel, 483 N.W.2d 68, 72 (Minn. 1992) (‘plausible
showing”); State v. Trammell, 435 N.W.2d 197, 201
(Neb. 1989) (“reasonable ground to believe”). 1

Petitioner categorizes Delaware and Vermont as applying a
low “plausibility” standard, but their full standards are bolstered
by other requirements. See Burns v. State, 968 A.2d 1012, 102526 (Del. 2009) (adopting “plausible showing” standard but
requiring a “compelling justification that that information was
needed”); Rehkop, 908 A.2d at 498 (in camera review proper upon
a “sufficiently particularized showing” that the records “may
indeed contain material evidence” and defendant had established
that the evidence was “necessary to his defense”). Petitioner also
cites a Rhode Island advisory opinion, but it only recognized that
a defendant-friendly “reason to believe” standard would pass
constitutional muster; it did not hold that such a standard was
1

21
And most jurisdictions emphasize that an in
camera review is not constitutionally required upon a
mere allegation that privileged records might contain
information that could be relevant or helpful. See, e.g.,
Green, 646 N.W.2d at 310 (“A defendant must show
more than a mere possibility that the records will
contain evidence that may be helpful or useful to the
defense.”); Zapata 428 P.3d at 529 (“For a court to
review statutorily privileged material, the initial
showing must be more than a ‘vague assertion that the
victim may have made statements to her therapist
that might possibly differ from the victim’s anticipated
trial testimony.’” (quoting Dist. Court, 719 P.2d at
726)).
Recognizing the psychologist-patient privilege
“serves the public interest, since the mental health of
the Nation’s citizenry, no less than its physical health,
is a public good of transcendent importance,” Jaffee v.
Redmond, 518 U.S. 1, 11 (1996), most jurisdictions
require a particularized factual showing that the
records contain material or exculpatory information to
prevent fishing expeditions into privileged records.
See, e.g., Stanaway, 521 N.W.2d at 576 (“The
defendant overstates his case when he asserts that his
right to discovery, confrontation, and effective crossexamination compels that he be granted an
opportunity to discover any potentially exculpatory
evidence. Without a more specific request, defendant
is fishing.”).

constitutionally required. See Advisory Op. to the House of
Representatives, 469 A.2d 1161, 1163-66 (R.I. 1983).

22
The Colorado Court of Appeals applied the
majority standard when it required Petitioner make a
particularized factual showing that the requested
records were “necessary to vindicate a defendant’s
right to present a complete defense.” Pet. App. 11a12a. And it concluded that Petitioner’s general and
vague proffer did not meet that standard. Pet. App.
12a-13a. This reasoning mirrors the reasoning in
cases from the majority of jurisdictions that permit in
camera review of privileged records upon a
particularized factual showing that the requested
records are material, exculpatory, or necessary to the
defense.
Because the Colorado Court of Appeals opinion
applied longstanding Colorado law and the majority
rule nationwide, it does not “deepen” any split in
authority. And under Colorado’s approach—which is
largely the same as most other jurisdictions that allow
in camera review—the Colorado Court of Appeals
decision was correct, as will be discussed next.
C. Petitioner did not make a sufficient
showing to justify in camera review.
Petitioner disagrees with the Colorado Court of
Appeals’ conclusion that Petitioner did not make a
sufficient particularized showing that Dennielle’s
records contained material, exculpatory information
that was necessary to vindicate his right to present a
complete defense and asks this Court to correct the
alleged error. See Pet. 11-12, 29. Because the court of
appeals correctly applied the appropriate standard,
this Court should not grant certiorari review.
As set out above, a defendant must make a
particularized factual showing that the privileged

23
records he seeks contained material, exculpatory
evidence necessary to his defense. Dist. Court, 719
P.2d at 727; Dill, 927 P.2d at 1324. Evidence is
“material” and exculpatory “if there is a reasonable
probability that, had the evidence been disclosed to
the defense, the result of the proceeding would have
been different.” Strickler v. Greene, 527 U.S. 263, 280
(1999) (quoting United States v. Bagley, 473 U.S. 667,
682 (1985)).
Petitioner proffered that Dennielle sought
psychotherapy treatment from Kaiser Permanente
“due to depression surrounding miscarriages and
other issues” and argued that “because she was
depressed, she may have taken her own life.” Pet. App.
31a-32a. Petitioner acknowledged that “there will be
other witnesses presented who will talk about her
wanting to be a mother and her inability to do that and
how that took an emotional toll on her” and that the
psychotherapy records would “be corroborating in that
sense.” Pet. App. 32a. He did not indicate when
Dennielle sought psychotherapy treatment (including
whether it was close in time to her death), that she
sought treatment because she was struggling with
suicidal ideation, or that she had attempted suicide
before. Pet. App. 13a. Nor did he suggest that
Dennielle sought treatment for depression because of
her unhappy marriage or Petitioner’s discovery of her
affair, let alone that she sought treatment because
these circumstances made her suicidal. See Pet. App.
31a-32a, 35a.
Petitioner’s proffer was not a sufficiently
particularized showing that Dennielle’s privileged
mental health records contained material, exculpatory

24
information necessary to his suicide defense. Contrary
to Petitioner’s speculation that Dennielle’s depression
“may” have led her to take her own life, recent studies
suggest that only 2% of individuals treated for
depression in an outpatient setting die by suicide, and
only 1% of women with a lifetime history of depression
die by suicide. See U.S. DEP’T OF HEALTH & HUMAN
SERVS., “Does depression increase the risk for suicide?”
FAQ – Mental Health and Substance Abuse,
https://www.hhs.gov/answers/mental-health-andsubstance-abuse/does-depression-increase-risk-ofsuicide/index.html (last accessed Sept. 11, 2020).
Coupled with Petitioner’s failure to specify when
Dennielle received treatment, whether he had reason
to believe she sought treatment based on expressions
of suicidal ideation, or whether she sought treatment
because she felt suicidal due to her unhappy marriage
or Petitioner’s discovery of her affair, his general,
vague proffer that Dennielle was treated for
depression at some point was not a sufficiently
particularized showing that the privileged records
might have contained exculpatory material.
Petitioner also acknowledged that he could elicit
essentially the same information from nonprivileged
sources, such as Dennielle’s family or friends, so the
privileged records would merely corroborate that
testimony. E.g., Dietrich, 701 F.3d at 1197-98 (noting
“no in camera review of B.T.’s counseling records was
necessary because even if the files contained the exact
information Dietrich speculated existed, that
information was first and foremost immaterial and
cumulative at best”); Fay, 167 A.3d at 911 (defendant
must show information sought was unavailable from

25
other nonprivileged sources); Green, 646 N.W.2d at
310 (“[T]he evidence sought from the records must not
be merely cumulative to evidence already available to
the defendant.”).
Petitioner’s subpoena was ultimately nothing
more than a broad discovery request, hoping that
Dennielle’s privileged records might contain evidence
supporting his suicide defense. See Dill, 927 P.2d at
1324 (“The defendant asserts nothing more than a
desire to conduct a fishing expedition in the hope of
discovering material exculpatory information that he
has no reason to believe will be found.”). Given
society’s paramount interest in protecting privileged
documents from disclosure—here, the substantial
interest in encouraging citizens to seek and obtain
effective mental health treatment—the Sixth and
Fourteenth Amendments did not require the court to
conduct an in camera review of Dennielle’s privileged
records based on Petitioner’s general and vague
proffer.
The trial court did not err in quashing Petitioner’s
subpoena for Dennielle’s mental health records
without reviewing them in camera because Petitioner
failed to make a sufficiently particularized showing
that the records might contain material, exculpatory
evidence necessary to his defense. Under these
circumstances, the Colorado Court of Appeals
correctly concluded that the Sixth and Fourteenth
Amendments did not require an in camera review of
Dennielle’s records covered by the psychologistpatient privilege.

26
CONCLUSION
Because Petitioner’s confession and presentation
of other evidence supporting his suicide defense
rendered any error harmless beyond a reasonable
doubt, and because Petitioner was not entitled to an
in camera review of Dennielle’s privileged records
under any standard, the petition for writ of certiorari
should be denied.

PHILIP J. WEISER
Attorney General
ERIC R. OLSON
Solicitor General

Respectfully submitted,
Digitally signed by L.
L. Andrew
Andrew Cooper
Date: 2020.09.11
Cooper
-06'00'
OOPER
L. ANDREW C16:18:52
Deputy Attorney
General
Counsel of Record*

Office of the Colorado
Attorney General
1300 Broadway, 10th Floor
Denver, Colorado 80203
andrew.cooper@coag.gov
(720) 508-6400

BRITTANY L. LIMES
Assistant Attorney
General

Counsel for Respondent
September 11, 2020

